No. 19-972
IN THE

Supreme Court of the United States
CHRISTOPHER EDWARD MCMILLEN,
AN INCAPACITATED PERSON,
Petitioner,
v.
NEW CANEY INDEPENDENT SCHOOL DISTRICT,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
REPLY BRIEF FOR PETITIONER
Andrew J. Clopton
JONES DAY
150 W. Jefferson
Suite 2100
Detroit, MI 48226
Terry P. Gorman
GORMAN LAW P.L.L.C.
901 S. Mopac
Expressway
Suite 300
Austin, TX 78746

Shay Dvoretzky
Counsel of Record
Alex Potapov
Parker Rider-Longmaid
JONES DAY
51 Louisiana Ave., NW
Washington, DC 20001
(202) 879-3939
sdvoretzky@jonesday.com

Counsel for Petitioner

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ...................................... ii
INTRODUCTION ....................................................... 1
ARGUMENT .............................................................. 3
I.

As this Court, the United States, and the
Fifth Circuit have recognized, the courts of
appeals are divided on whether exhaustion
is required when plaintiffs seek relief that
is not available under the IDEA ......................... 3

II. This case is an excellent vehicle for
addressing the important split left
unresolved in Fry ................................................. 8
III. The Fifth Circuit’s decision is wrong ................ 10
CONCLUSION ......................................................... 12

ii
TABLE OF AUTHORITIES
Page(s)
CASES
Fry v. Napoleon Cmty. Schs.,
137 S. Ct. 743 (2017) .................................... passim
Paul G. ex rel. Steve G. v. Monterey
Peninsula Unified Sch. Dist.,
933 F.3d 1096 (9th Cir. 2019) .................... 2, 5, 7, 8
Payne v. Peninsula Sch. Dist.,
653 F.3d 863 (9th Cir. 2011) (en banc) ........ passim
STATUTES
20 U.S.C. § 1415 ................................................ 1, 4, 10

1
INTRODUCTION
New Caney Independent School District’s brief in
opposition is most notable for what it does not do. New
Caney does not dispute that this Court granted review
to resolve the question presented here but left it “for
another day.” Fry v. Napoleon Cmty. Schs., 137 S. Ct.
743, 752 n.4 (2017); see id. at 754 n.8. Nor does New
Caney dispute that the question presented is important, because it determines whether parents must
undergo long, costly, and pointless IDEA proceedings
before vindicating their children’s rights. And New
Caney does not meaningfully dispute that the “injurycentered” approach adopted by most circuits contradicts the statutory text, as the en banc Ninth Circuit
and the United States have both explained. Payne v.
Peninsula Sch. Dist., 653 F.3d 863, 873–74 (9th Cir.
2011) (en banc); Br. for the United States as Amicus
Curiae at 23–25, Fry, No. 15-497 (U.S. Aug. 29, 2016).
Instead, New Caney makes the remarkable assertion that there is no split at all. That position is irreconcilable with Fry, in which this Court granted review
precisely to resolve “confusion in the courts of appeals
as to the scope of [20 U.S.C.] § 1415(l)’s exhaustion requirement,” and explained that the Ninth Circuit disagreed with the majority approach. 137 S. Ct. at 752
& n.3. The United States also recognized the split, recommending certiorari in Fry based on it. The Fifth
Circuit panel below acknowledged it, too, and found it
outcome-determinative. And for good reason: the split
is apparent on the face of the Ninth Circuit’s en banc
decision in Payne, which overruled the Ninth Circuit’s
own precedent and rejected the injury-centered approach of most other circuits in favor of a textualist,
relief-centered reading of the statute.

2
Unlike other circuits, the Ninth Circuit does not
require exhaustion just because a case involves the
denial of a free appropriate public education (FAPE).
Payne focuses on the relief the plaintiff seeks. If that
relief is unavailable under the IDEA, the plaintiff
need not exhaust, even if her injury involved a FAPE
denial. And although Payne acknowledges a narrow
exception to that basic principle to address the problem of artful pleading, that exception is irrelevant
here and does not undermine the outcome-determinative disagreement between the Ninth Circuit and
other courts of appeals. New Caney’s contrary claim
elides Payne’s distinction between non-IDEA claims
that substantively incorporate the IDEA (thus requiring exhaustion) and claims resting on constitutional
or statutory rights that exist independent of the IDEA
(thus not requiring exhaustion, even if the plaintiff
was also denied a FAPE). See Payne, 653 F.3d at 875,
879–80. Far from undercutting the split established
by Payne, the Ninth Circuit’s later decision in Paul G.
ex rel. Steve G. v. Monterey Peninsula Unified School
District, 933 F.3d 1096 (9th Cir. 2019), only confirms
Payne’s vitality.
The courts of appeals are divided over a critical
issue. This Court in Fry recognized that split and
agreed to resolve it, but ultimately left the question
open. Now is the time to answer it.

3
ARGUMENT
I.

As this Court, the United States, and the
Fifth Circuit have recognized, the courts of
appeals are divided on whether exhaustion
is required when plaintiffs seek relief that is
not available under the IDEA

A. 1. As the Petition explained (at 15–23), there
is an important and persistent split on the question
this Court reserved in Fry: whether a plaintiff must
exhaust the IDEA’s administrative procedures when
seeking relief that is unavailable under the IDEA. 137
S. Ct. at 752 n.4, 754 n.8. Nine circuits (the First, Second, Third, Fifth, Sixth, Seventh, Eighth, Tenth, and
Eleventh) follow the injury-centered approach. They
hold that a plaintiff bringing non-IDEA claims and
seeking only money damages must still exhaust his
claims if the IDEA’s administrative procedures could
theoretically provide him with some relief for his injury—even if he is not seeking that relief. Pet. 16–17.
The en banc Ninth Circuit, in contrast, has rejected the injury-centered approach in a textualist
opinion authored by Judge Bybee. Payne, 653 F.3d at
873–75; Pet. 17–19. Instead, the Ninth Circuit
adopted a relief-centered approach that requires exhaustion only when a plaintiff “actually s[eeks] relief
available under the IDEA.” Payne, 653 F.3d at 875. In
other words, plaintiffs must “exhaust the remedies
available to them under the IDEA before they seek the
same relief under other laws.” Id. at 872. But if the
“plaintiff can identify a school district’s violation of
federal laws other than the IDEA and can point to an
authorized remedy for that violation unavailable under the IDEA, then there is no reason to require exhaustion.” Id. at 881.

4
2. The Fifth Circuit below analyzed the split.
App. 11a–12a. It sided with the majority position, and
expressly rejected the views of both the Ninth Circuit
in Payne and the United States, which had recognized
the split and advocated the Ninth Circuit’s view in
Fry. Pet. 13–14; Br. for the United States as Amicus
Curiae at 18–22, Fry, No. 15-497 (U.S. May 20, 2016)
(“SG Cert. Br.”). As the United States explained there,
the “injury-centered” approach followed by most circuits “require[s] exhaustion whenever the IDEA can
provide some relief for the injury alleged in the complaint”—whether or not the plaintiff’s cause of action
“invokes the IDEA,” and even if the plaintiff does not
“actually request[] the form of relief that might be
available under [the IDEA].” SG Cert. Br. 19. “By contrast, the en banc Ninth Circuit has expressly rejected
the ‘injury-centered’ interpretation of Section 1415(l)
in favor of a ‘relief-centered’ approach” that “‘applies
to claims only to the extent that the relief actually
sought by the plaintiff could have been provided by the
IDEA.’” Id. at 20 (quoting Payne, 653 F.3d at 874); see
Pet. 15–18.
This is precisely the split that this Court agreed
to consider in Fry. See 137 S. Ct. at 752 & n.3. Noting
the “confusion in the courts of appeals,” the Court explained that the Ninth Circuit in Payne had “criticized” approaches “‘treat[ing] § 1415(l) as a quasipreemption provision.’” Id. (quoting Payne, 653 F.3d
at 875). But because it resolved the case on other
grounds, the Court left “for another day” the question
whether “a plaintiff, although charging the denial of a
FAPE, seeks a form of remedy that an IDEA officer
cannot give,” such as “money damages for resulting
emotional injury.” Id. at 752 n.4, 754 n.8.

5
B. New Caney ignores all of this, but still insists
there is no split. In doing so, New Caney misreads the
Ninth Circuit’s decisions in Payne and Paul G. and
then rewrites the question presented. On the actual
question presented, the split is as intractable as ever.
1. New Caney apparently believes that there is
no split because it reads Payne to require exhaustion
whenever the plaintiff says he was denied a FAPE. See
Opp. 13–17. But that reading distorts Payne beyond
recognition, transforming it into the very injury-centered approach that the Ninth Circuit expressly rejected. Indeed, the Fifth Circuit below did not read
Payne that way. Instead, it reached the question presented—on which it disagreed with Payne—only after
it concluded that this case involved the denial of a
FAPE. See Pet. 10a–11a.
The Fifth Circuit read Payne correctly. As noted
above, Payne’s core principle is that exhaustion is required only when a plaintiff “actually s[eeks] relief
available under the IDEA.” 653 F.3d at 875. If a plaintiff seeks relief that is not available under the IDEA—
such as damages—exhaustion is not required, even if
the plaintiff’s injury included the denial of a FAPE.
Indeed, in Payne itself, the Ninth Circuit remanded for application of its relief-centered approach
even though the plaintiff had also alleged “that the
defendants violated [the student’s] ‘statutory rights
under the IDEA’” by locking the student in a closetsized room without supervision. Id. at 865–66, 883.
The court explained that the plaintiff’s constitutional
claim “is cognizable under the Fourth Amendment
and exists separate and apart from the denial of a
FAPE, irrespective of the fact that the alleged excessive punishment took place in a special education

6
classroom.” Id. at 880. The court analogized it to a
claim challenging an “unconstitutional beating” in the
classroom—a claim that would not require exhaustion
even if the beating prevented the student from obtaining a FAPE. Id.
To be sure, the Ninth Circuit in Payne noted that
a plaintiff whose “claim arises only as a result of the
denial of a FAPE” must exhaust “because there is no
other federal cause of action for such a claim.” Id. at
880 (emphasis added); see id. at 875. But that exceedingly narrow exception cannot bear the weight New
Caney puts on it. As the Petition explained—and New
Caney does not meaningfully dispute—that exception
applies only to claims that substantively incorporate
the IDEA because they require a plaintiff to prove a
violation of rights created by the IDEA. It does not refer to claims, such as Christopher’s, that assert rights
that exist independently of the IDEA. See id.; SG Cert.
Br. 21 & n.7; Pet. 25–27.1
In sum, Payne does not require exhaustion just because the plaintiff says he was denied a FAPE. Indeed,
if New Caney were correct, Payne would prescribe an
injury-centered approach under which a plaintiff who
alleges the injury of a FAPE denial must always exhaust. But Payne expressly rejected that rule in favor
of a textually based relief-centered approach. See
Payne, 653 F.3d at 873–75; Pet. 17–18. Unsurprisingly, both the panel below and the United States have
repudiated New Caney’s understanding of Payne. See
SG Cert. Br. 18–21 & n.7; App. 11a–12a.
1

The Petition explained (at 25), and New Caney does not
challenge, that the other two exceptions identified in Payne also
are irrelevant here.

7
2. New Caney relies on the Ninth Circuit’s recent decision in Paul G. A panel decision like Paul G.,
of course, cannot overrule the en banc court’s holding
in Payne and eliminate the circuit split it created. In
fact, Paul G. cites Payne and reaffirms the Payne
framework.
The complaint in Paul G. alleged that “to receive
a FAPE [Paul] required a residential placement” that
“the state had failed to provide.” 933 F.3d at 1099. The
Ninth Circuit held that exhaustion was required because the “only basis for [Paul’s] claim is that such a
placement is required under the IDEA.” Id. at 1102
(emphasis added); see id. (citing Payne). In other
words, Paul G. falls into Payne’s narrow exception for
claims that substantively incorporate the IDEA and
that can be understood no other way. Although Paul’s
parents invoked other laws, they were necessarily relying on the IDEA because, as the panel explained, the
IDEA was the only possible basis for Paul’s claim.
Paul G., therefore, is a straightforward application of the Payne framework. Indeed, Paul G. reaffirms that, before requiring exhaustion, the Ninth Circuit continues to ask whether “[t]he only basis for …
a claim” is a violation of the IDEA. Id. Exhaustion is
not required where (as here) “constitutional and statutory rights that exist independent of the IDEA … entitle[] a plaintiff to relief different from what is available under the IDEA.” Payne, 653 F.3d at 876.2

2

This Court denied review in Paul G. on April 20, 2020 (No.
19-1043). Of course, Paul G. does not implicate the split at issue
here because the Ninth Circuit required exhaustion there even
under Payne. Tellingly, the circuit split asserted by the petition

8
3. New Caney also tries to wave away the split
by rewriting the question presented and suggesting
that no split exists on its preferred formulation. See
Opp. at i (suggesting that the question presented is
whether exhaustion is required where a damages
claim is “premised on the alleged denial of a [FAPE]”).
Specifically, New Caney notes that even Payne requires plaintiffs to exhaust claims that are “premised
on the denial of a FAPE.” Payne, 653 F.3d at 875; see
Opp. 19. But, as explained above and in the Petition,
that sliver of an exception is limited to claims that
substantively incorporate the IDEA. See supra pp. 5–
6; Pet. 25–27. Thus, a split persists as to the large
class of claims brought by plaintiffs who may have
been denied a FAPE, but whose causes of action do not
require them to prove a violation of IDEA rights, and
who seek relief that is unavailable under the IDEA.
As discussed below, Christopher’s claims fall into this
category, making this case an ideal vehicle.
II. This case is an excellent vehicle for addressing the important split left unresolved in Fry
A. This case perfectly presents the question reserved in Fry. That question can arise only when a
court has already determined under Fry that the
plaintiff’s injury involves the denial of a FAPE. Otherwise, it would be clear under Fry itself that exhaustion
is unnecessary. Here, the Fifth Circuit reached the
question presented only after making that determination. App. 6a–10a. As the court recognized, that is
what made it necessary to “address [the] question”

was a purported conflict between the Ninth and First Circuits on
a narrow futility question. See Pet. 8–9, Paul G., No. 19-1043.

9
presented here, i.e., “whether the exhaustion requirement applies when a plaintiff is seeking remedies not
available under the IDEA.” App. 11a.
Thus, to the extent New Caney argues (at 18–19)
that this case is a poor vehicle simply because Christopher was denied a FAPE, it gets things precisely
backwards. Far from presenting a vehicle problem,
that much is required to tee up the question this Court
left open in Fry.
B. New Caney also contends that this case is a
poor vehicle because Christopher’s “claim … is premised on the alleged denial of a FAPE.” Opp. 18. Again,
if New Caney means to invoke Payne’s narrow exception for claims that require a plaintiff to prove a violation of the IDEA’s substantive standards, that argument fails for the reasons above.
Of course, as the Petition explained (at 26–27), the
circumstances giving rise to Christopher’s claims did
occur in a classroom and did result in the denial of a
FAPE. But the claims in the operative complaint in no
way depend on proving a violation of the IDEA. Instead, Christopher alleges that he suffered independently unlawful and unconstitutional abuse and
discrimination at the hands of his English teacher and
the school officials who conspired to expel him because
of his disability and religion. Pet. 10–12; App. 3a–4a,
36a–38a & n.3. Indeed, he challenges disability- and
religion-based discrimination, not the failure to meet
any educational standard. Christopher’s Rehabilitation Act, Equal Protection Clause, and First Amendment claims do not require proof of rights created by
the IDEA; they do not depend on substantive standards set forth in the IDEA; and they would be cognizable even if the IDEA did not exist. That is true even if

10
Christopher’s treatment and expulsion—like the “unconstitutional beating” described in Payne—interfered with the achievement of a FAPE. 653 F.3d at
880.
Rather than explaining why it thinks Christopher’s claims rely on rights created by the IDEA, New
Caney spends several pages (at 18–20) discussing
Christopher’s individualized education program, the
educational context, and the procedural history of this
case. But the most any of that can show is that Christopher’s injury involves a FAPE denial. And, as explained, that is precisely what tees up the question
left open in Fry. In short, far from identifying a vehicle
problem, New Caney has confirmed that this case is a
perfect vehicle.
III. The Fifth Circuit’s decision is wrong
As the Petition explained (at 28–33), the Fifth Circuit’s injury-centered approach is atextual and incorrect. The statute requires exhaustion only in cases
“seeking relief that is also available under [the
IDEA].” 20 U.S.C. § 1415(l). Plaintiffs like Christopher thus need not exhaust, because they seek only a
form of relief that is unavailable under the IDEA:
compensatory damages. See App. 54a. This relief-centered approach finds ample support in statutory purpose and legislative history as well. See Pet. 32–33.
New Caney does not address these arguments. Instead, it rests its merits arguments largely on Fry. See
Opp. 21–22. But Fry reserved the question presented
here. 137 S. Ct. at 754 n.8; see id. at 752 n.4. And Fry’s
reasoning cuts against New Caney’s position, because
Fry reiterates that statutory interpretation must
“begin … with the statutory language.” Id. at 753. As

11
even the Fifth Circuit recognized, the relief-centered
approach is the “textualist approach.” App. 13a.
In the end, New Caney effectively admits that the
majority’s injury-centered approach is driven by the
policy interest in avoiding “artful pleading.” Opp. 2,
21–22. But New Caney makes no effort to explain why
artful pleading is a serious problem that cannot be
dealt with through other means. (It’s not, and it can
be. Pet. 32.) Nor does New Caney address the costs of
the majority approach: forcing parents to participate
in costly, futile proceedings. Pet. 32–33. And New
Caney cannot explain how its policy position, even if
it were persuasive, could overcome the plain language
of the statute.
*

*

*

The question this Court reserved in Fry, and
which continues to divide the circuits, is important to
children, families, and educators. The majority’s injury-centered approach forces students and parents to
endure costly, pointless proceedings. And it does so in
contravention of the statutory language. As the Fifth
Circuit acknowledged, there is a powerful “textualist
case”—set out by the Ninth Circuit and by the United
States—for adopting a relief-centered approach. App.
13a. And a court’s estimation of what is “necessary to
enforce the statutory scheme,” App. 14a, cannot justify disregarding what Congress wrote. This Court
should step in to enforce the statute as written and
protect plaintiffs like Christopher.

12
CONCLUSION
The Court should grant the petition for writ of certiorari.
May 4, 2020

Respectfully submitted,

Andrew J. Clopton
JONES DAY
150 W. Jefferson
Suite 2100
Detroit, MI 48226

Shay Dvoretzky
Counsel of Record
Alex Potapov
Parker Rider-Longmaid
JONES DAY
51 Louisiana Ave., NW
Washington, DC 20001
(202) 879-3939
sdvoretzky@jonesday.com

Terry P. Gorman
GORMAN LAW P.L.L.C.
901 S. Mopac
Expressway
Suite 300
Austin, TX 78746

Counsel for Petitioner

